t

- 7 ft 5 o
In The
Supreme Court of the United States
________________ Term, 2021
JOHN ELMER — Appellant

Tt

jE
V.

itiililff.

STATE OF LOUISIANA — Appellee(s)

On Petition for a Writ of Certiorari to
I jOIHSI ANA FIFTH CIRCUIT COURT OF APPEAL

FILED
APR 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.R

John Elmer #185491
MPWY/Wal-4
La. State Penitentiary
Angola, LA 70712

RECEIVED
APR 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PREPARED BZ
David Constance #304580
Offender C crunsel Sub stitute III
Main Prison Legal Aid Office
Criminal Litigation Team
La. State Penitentiary
Angola, LA 70712

QUESTIONS) PRESENTED
1. Reasonable jurists would determine that the State failed to meet the stringent burden
of proof as established by Jackson v. Virginia and In re: Wlnship.

LIST OF PARTIES
[ ]

All parties appear in the caption of the case on the cover page.

[ X ] All parties do not appear in the caption of the rase on the cover page. A list of all parties to the
proceeding in die court whose judgment is the subject of this petition is as follows.

District Attorney's Office
Parish of St. Charles
P.O. Box 680
Hahnville, LA 70057-0680
Jeff Landry - Louisiana Attorney General
P.O. Box 94005
Baton Rouge, LA 70804-9005
Darrel Vannoy, Warden
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

RECEIV
APR 2 6 21

TABLE OF CONTENTS:

Page

QUESTION(S) PRESENTED
LIST OF PARTIES
INDEX TO APPENDICES....

l

TABLE OF AUTHORITIES

2

OPINIONS.

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED,

1

NOTICE OF PRO-SE FILING.

1

REASONS FOR GRANTING THE PETITION.

1

STATEMENT OF THE CASE AND ACTION OF TRIAL COURT.

3

STATEMENT OF THE FACTS,

5

STANDARD OF REVIEW,

10

LAW AND ARGUMENT.

10

ISSUE NO. 1
10
John Elmer The State failed to meet the stringent burden of proof as required in
Jackson v. Virginia, and In re: Winship, and there was insufficient evidence to prove that
Mr. Elmer is guilty of Molestation of a Juvenile.
10
21
SUMMARY.............................................................
CONCLUSION.

23

PROOF OF SERVICE.

25

INDEX TO APPENDICES AND EXHIBITS
APPENDIX A

Original Briefs) by Counsel

APPENDIX B

Pro-Se Supplemental Brief on Appeal

APPENDIX C

Ruling Fifth Circuit Court of Appeal

APPENDIX D

Writ Application to the Louisiana Supreme Court

APPENDIX E

Ruling Louisiana Supreme Court

\\Mepd05\ICS\)p-dQonstance80\My Documents\dlerts\E\E] mer John #185491\Elmer John USCERTodt

John Elmer v. State ofLouisiana, Warden

i.

TABLE OF AUTHORITIES:

Page

U.S. CONSTITUTION:
Fifth, Sixth and Fourteenth Amendments to the United States Constitution.

1

Fourteenth Amendment to the United States Constitution...........................

1,10

FEDERAL CASES:
Haines v. Kemer, 404 U.S. 519, 92 S.Ct. 594, 30 L.Ed.2d 652 (1972).....

1

In re Winship, 397 U.S. 358, 90 S.Ct. 1068,25 L. Ed. 2D 368 (1970)......

1,10,13

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781,61 L.Ed.2d 560 (1979).

pas sun

U.S. v. Marion, 404 U.S. 307, 92 S.Ct. 45, 30 L.Ed.2d 468......................

10

STATUTORY PROVISIONS:
LSA-R.S. 14:106(A)(5).

21

LSA-R.S. 14:67............

17

LSA-R.S. 14:81............

14pp., 19p.

LSA-R.S. 14:81.1.........

15

LSA-R.S. 14:81.2.........

3,14pp., 19p.

LSA-R.S. 14:81.2(A)....

17

LSA-R.S. 14:81.3.........

20

LSA-R.S. 14:81(A)......

16

Rule X, § (b) and (c)....

1

STATE CASES:
State v. Allen, 36,180 (La App. 2nd Cir. 9/18/02), 828 So.2d 622......................

14

State v. Ashley, 33,880, at *3 (La App. 2nd Cir. 10/04/00), 768 So.2d 817, 819.

10

State v. Busby, 94-1354 (La App. 3rd Cir. 4/5/95), 653 So.2d 140.....................

15

State v. Casey, 99-0023, p. 9 (La 1/26/00), 775 So.2d 1022...............................

14

State v. Davis, 2001-3033 (La App. 1st Cir. 6/21/02), 822 So.2d 161,162-3.....

10

State v. Gilliam, 36,118 (La App. 2nd Cir. 8/30/02), 827 So.2d 508..................

14

State v. Hearold, 603 So.2d 731 (La 6/29/1992).................................................

10

\\Mepd05\ICS\Ip-daonstance80\My Documents\dlents\E\EI mer John # 18549l\Elmer John U9CERTodt

John Elmer v. State ofLouisiana, Warden

ii.

State v. Herron, 2003-2305 (La App. 1st Cir. 5/14/04), 879 So.2d 778..........

10

State v. Kennedy, 803 So.2d 916 (La 2001)....................................................

14

State v. LeBlanc, 506 So.2d 1197 (La 1986)............. ......................................

16

State v. LeBlanc, 506 So.2d 1197 (La 5/18/1987)...........................................

15

State v. Marrero, 2011-1285, pp. 6-7 (La App. 1st Cir. 2/10/12), 92 So.3d 21

18

State v. Matthews, 464 So. 2d 298 (La 1985)...................................................

14

State v. Pericins, 11-955, p. 10 (La App. 3rd Cir. 3/7/12), 86 So.3d 810,817..

14

State v. Ragas, 607 So.2d 967 (La App. 4th Cir. 1992)...................................

18

State v. Rideanx, 05-446 (La App. 3rd Cir. 11/2/05), 916 So.2d 488,490......

19

State v. Shelton, 545 So.2d 1285 (La App. 2nd Cir. 1989)..............................

17

State v. Strother, 43,363 (La App. 2nd Cir. 8/20/08), 990 So.2d 130..............

18

State v. Teague, 893 So.2d 198, 205.................................................................

15

State v. Watson, 39,362 (La App. 2nd Cir. 4/20/05), 900 So.2d 325...............

15

!

\\MepdO5\ICS\Ip-doDnstance80\My Documents\dIents\E\0 mer John #185491\Elmer John U9CERTodt
ill.
John Elmer v. Slate ofLouisiana, Warden

IN THE
SUPREME COURT OF THE UNTIED STATES
PETITION FOR WRIT OF CERTIORARI
Appellant respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ]

For cases from federal courts:
The opinion of the United States Court of Appeals appears at Appendix
die petition and is
[ ]
[ ]
[ ]

reported at
^ or,
has been designated for publication but is not yet reported; or,
is unpublished.

The opinion of the United States district court appears at Appendix
petition and is
[ ]
[ ]

[ 1

to

to the

reported at
; or,
has been designated for publication but is not yet reported; or,
is unpublished.

[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
“E” to the petition and is the Louisiana Supreme Court in Docket Number 2020K-01131.
[ ]
[X]
[ ]

reported at
;or,
has been designated for publication but is not yet reported; or,
is unpublished.

The opinion of the Fifth Circuit Court of Appeal appears at Appendix “C” to the
petition and is
[X]
[ ]
[ ]

reported at 19-KA-478: or,
has been designated for publication but is not yet reported; or,
is unpublished.

\\Mepd05\ICS\|p-da)nst3nce80\My DDcuments\dlents\£\fElmer John #185491\Pmer Ibhn U9CBVTodt

John Elmer v. State ofLouisiana

1.

JURISDICTION
[ ]

For cases from federal courts:
Hie date on which the United States Corat of Appeals decided my case was
[ ]

No petition for rehearing was timely filed in my case.

[ ]
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____
, and a copy of the order
denying rehearing appears at Appendix
[ ]
An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No..
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[ X ] For cases from state courts:
The date on which the highest state court decided my case was February 9, 2021.
A copy of that decision appears at Appendix “E”.
[ ]
A timely petition for rehearing was thereafter denied on the following
date:
, raid a copy of the order denying rehearing appears at
Appendix
[ ]
An extension of time to file the petition fra- a writ of certiorari was granted
to raid including
(date) on
(date) in Application
No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

\\Mepd05\ICSMp-doDnstaTce80V^y DDCuments\dlerts\E\0 mer John #185491\Elmer John USCERTodt
John Elmer v. State ofLouisiana
2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This conviction was obtained in violation of the Fifth, Sixth and Fourteenth Amendments to the
United States Constitution. Specificalfy, Mr. Elmer was denied the right to a fair and impartial trial due
to the fact that the Court failed to consider that his entire case was braed upon false allegations.
NOTICE OF PRO-SE FILING
Mr. Elmer requests that this Honorable Court view these Claims in accordance with the ruling of
Haines v. Kenter. 404 U.S. 519, 92 S.Ct. 594, 30 L.Ed.2d 652 (1972); Mr. Elmer is a layman of the
law and untrained in the ways of filings mid proceedings of formal pleadings in this Court.
REASONS FOR GRANTING THE PETITION
In accordance with this Court’s Rule X, § (b) and (c), Mr. Elmer presents for his reasons for
granting this writ application that:
Review on a Writ of Certiorari is not a matter of right, but of judicial discretion. A petition for a
Writ of Certiorari will be granted only for compelling reasons. The following, although neither
controlling nor fully measuring the Court's discretion, indicate the character of the reasons the Court
considers.
A state court of last resort (Louisiana Supreme Court) has decided an important federal question in
away that conflicts with the decision of another state court of last resort or of a United States Court of
Appeals.
A state court or a United States Court of Appeals has decided an important question of federal law
that has not been, but should be, settled by this Court, or has decided an important federal question in a
way that conflicts with relevant decisions of this Court.
This Honorable Court must review the sufficiency of the evidence, especially considering the fact
that Mr. Elmer had been found not guilty (unanimously) by the jury. Furthermore, Mr. Elmer was found
guilty of three of his Counts by anon-unanimous jury verdict.
\\MepdO5\ICS\)p-<tonstance80Vl/ly Doajments\dlents\fE\f3rner Jain #185491\E!mer John USCERTodt
John Elmer v. State ofLouisiana, Warden
1.

Mr. Elmer has properly informed the courts (hat this entire case was a case of “follow the money,”
because it appears that these allegations were lodged after a family confrontation concerning the money
that Mr. Elmer had saved for his retirement. Let's not forget that the alleged victim's mother had sued
Mr. Elmer in order to ensure that, “so that I can take care of the kids to the extent they have been
living” (Rec.pp. 1072,1086).”
In fact, almost all of the texts Sunnie Elmer (Mr. Elmar's daughter, and the alleged victim's mother)
sent to Mr. Elmer were about money and property that she wanted from him because the family had
basically been “cut off” from Mr. Elmer's money after his divorce from his wife (Sue Tegre). A close
review of the texts and messages failed to include any allegations concerning TO. This Court must
deteimine that these allegations had been lodged against Mr. Elmer because TfFs mother and
grandmother were concerned about their own financial security after the divorce.
There was quite a bit of testimony concerning John's money that everyone wanted, including the
inheritance and the properties that he owned. The disclosure happened soon after eveiyone found at that
John was moving to Brazil for retirement This means that Sue wasn't going with him; which resulted in
a Divorce. According to the pre-nuptial agreement, Sue would end up with nothing. The family had also
discovered that John had changed his Will, leaving everything to his son instead of dividing up the
money and assets.
Furthermore, testimony adduced during the course of the trial proves that the alleged victim had
been constantly questioned by her m ether, gran An other, and ha- mother's friend (Jennifer Richard)
concerning TO. The questions presented to ha* were not “general” questions, but specific questions in
which TH was asked about illicit conduct by her grandfather. The questions presented to TH were
specifically designed to obtain the answers desired. These specific questions were, “Did Grandad do
this or that?” Not what happened, and who did it?
\\MepdO5\ICS\Ip-dconstance80\My DDCumentsVdlents\E\jB mer John #185491\Elmer Jchn USCERTodt

John Elmer v. State qfLouisiana, Warden

2.

In fact, Jennifer Richard (the alleged victim's mother's friend) had only recently obtained a job in
Crisis Management a month prior to the commencement of Mr. Elmer's trial (Rec. p. 999), with only
“some” training with children (Rec.p. 999). In fact, Ms. Richard testified that the arguments with TH
and her mother concerned her troubles at school, the bullying TH had been doing to other students at
her school (hence, the suspensions and moving to other schools), and the fact that TH was unable to get
what she wanted when they went shopping on “Black Friday” (Rec.pp. 1013,1304).
During TH's testimony, she admitted that the allegations were made during a family argument
concerning her school, and her “attitude” concerning the shopping trip; and that her mother and
grandmother had specifically asked her if her grandad had done anything to her (Rec.p. 1415). After the
disclosure of the alleged abuse, all arguments ceased concerning TH's behavior.
The State has also relied heavify on the erroneous allegation that Mr. Elm er was taking his
granddaughter to Victoria's Secrets to shop for underwear. Although Sue Tegre and Sunnie Elmer
testified to such, TH specifically testified that her mother (Sunnie Elmer) was the one who brought her
to Victoria's Secrets in order to purchase underwear (Rec.p. 1418).
In light of the argument above, and the argument presented to the Fifth Circuit Court of Appeal, Mr.
Elmer contends that the State failed to meet their stringent burden of proof as required in Jackson y.
Virginia, 443 U.S. 307,99 S.Ct. 2781,61 L.Ed.2d 560 (1979).
STATEMENT OF THE CASE AND ACTION OF TRIAL COURT
John Elmer was charged by Bill of Information with four Counts of Molestation of a Juvenile, in
violation of LSA-R.S. 14:81.2 (Rec.pp. 18-20).1 On February 6, 2018, he entered a plea of not guilty
(Rec.p. 2). The State filed a 404(B) notice to admit evidence of other crimes and on January 18, 2019,
die State and defense stipulated to the admission of one prior act that occurred in Alabama (Rec.pp. 5,
6,293-93).
1 Mr. Elmer was originally charged with 4 other counts, but was found not guilty on Counts 1,2, 7, and 8 (Recpp. 18-20).
\\Mqxl05VCSVp-dQMTstancea31^ly DocurnentsV-llents^lP mer John #18549i\Elmer John USCERTodt
John Elmer v. State qfLouisiana, Warden
3.

Hie defense filed a Motion in Limine to keep the child witness from testifying, which was denied
(Rec.pp. 295-310). Hie defense also objected to allowing Detective Waguespack to be named as case
agent and allowed to remain in die courtroom in the interest of justice and as an exception to the
warrant requirement (Rec.pp. 311-8).
On January 22,2019, atwelve person jury was seated (Rec.pp. 332-816). On January 24,2019, Mr.
Elmer was found guilty as charged on Counts 3-6 (non-unanimous verdicts of 11-1 on Counts 3,4, and
5; and a unanimous verdict on Count 7). Mr. Elmer was found not guilty on Counts 1, 2, 7, and 8. Hie
trial court ordered a pre-sentence investigation (hereinafter sTSI”)(Rec.pp. 10-6).
The Motion for New Trial and Post-Verdict Judgment Motion of Acquittal were heard and denied
on June 17, 2019 (Rec.pp. 16-7,102-6). The trial court heard victim impact statements. Mr. Elmer was
sentenced to serve ninety-nine (99) years at hard labor on Counts 3, 4, and 5. These sentences were
ordered to be served concuirently, without the benefit of Probation, Parole, or Suspension of Sentence.
Mr. Elmer was sentenced to serve twenty (20) years on Count 6, to be served consecutively to Count 3,
and he was given credit for time served (Rec.pp. 16-7).2 A written Motion for Appeal was filed and
granted (Rec.pp. 152-4).
On October 28, 2019, the Louisiana Appellate Project timely filed the Original Brief on Behalf of
Mr. Elmer on Appeal. On July 31, 2020, the Louisiana Fifth Circuit Court of Appeal, granted in part
and denied in part, written reasons.3 Mr. Elmer then timely filed for Writ of Certiorari to the Louisiana
Supreme Court on August 17, 2020, which was denied on February 9, 2021. See: Skate v. Elmer. 310
So.3d 182 (La 2/9/21).
Mr. Elmer now timely files for Writs of Certiorari to this Honorable Court, and respectfully
requests that this Honorable Court exercise its Supervisory Authority of Jurisdiction over the lower
2 It mud: be noted that the Court has imposed the maximum sentences on all Counts.
3 In Docket No: 19-478, the Louisiana Supreme Court remanded Counts 3, 4, and 5 for further proceedings pursuant to
the recent ruling in Smmts.
\\Mepd05\ICS\|p-doonstance8OV4y Documents\cllents\E\P mer John #185491\jElmer ibhn U9CERTodt

John Elmer v. State ofLouisiana, Warden

4.

courts for the following reasons to wit:
STATEMENT OF THE FACTS
Detective Christopher Waguespack testified he was assigned as a juvenile detective. Sunnie Elmer
called the office to make a complaint and was told to set up an appointment with Det. Waguespack on
Monday. On the same day, a report was made by Jennifer Richard to a patrol deputy (Rec.pp. 895-904).
Ms. Elmer disclosed the JH disclosed to her aid her mother that her grandfather had been molesting
her for years. Det. Waguespack interviewed JH, who said the first time was in Alabama when they were
on a trip together and she was 10 years old. Det. Waguespack testified that JH then spoke to a female
forensic interviewer, Lt. Renee Kinler. Det. Waguespack testified that he got no indication that JH was
being influenced by her mother for financial gain (Rec.pp. 905-14).
Det. Waguespack testified that there was no indication that Mr. Elmer had ever penetrated her
vaginally. He admitted there was never any indication of PH being an eyewitness to any of these
incidents. No physical exam was performed because it had been 5 or 6 months since the last alleged
incident and the reporting (Rec.pp. 915-6).
Det Waguespack next spoke with Jennifer Richard who was considered the first reporter and Sue
Tregre. He testified the statements were all consistent and did not appear to be motivated by money.
Det Waguespack corroborated some of the information from texts on Sunnie's phone between her and
Mr. Elmer. Det. Waguespack admitted he never contacted Mr. Elmer or attempted to get DNA (Rec.pp.
916-26).
Three months later in March of 2018, the detective got a second recorded statement from JH He
had been contacted by Sunnie Elmer again because her daughter was unable to sleep and worried if she
was a virgin. He also spoke with JH ggain later that day and had Lt. Kinler conduct a second forensic
interview.

\\Mepd05\ICS\lp-doDnstance80\My Documents\dlerts\E\Bmo- John #185491\Elmer John USCERTodt
John Elmer v. State ofLouisiana, Warden
5.

No further action was taken or deemed necessary. On August 20, 2018, Sunnie contacted the
detective again and claimed her son, PH, was a witness to some of the abuse. Det. Waguespack went to
Mississippi and spoke with Lisa Barylski, the person PH disclosed to, and to PH. PH told the detective
he had seen his grandfather on top of JH, and that the two had been behind closed doors and heard
arguing about her taking off her clothes. Det. Waguespack admitted PH bounced around during his
statement and had been talking about several different things. The detective asked him why he came
forward now, and PH said it was because someone had been talking bad about his sister and he was
trying to defend her (Rec.pp. 927-33).
On cross-examination, Det. Waguespack admitted the initial report while shopping was JH's
response to why she was having disciplinary problems and her demeanor. He admitted they did not
investigate any possible financial influences for die allegations. Det. Waguespack got a search warrant
for the house at Bayou Gauche and permission from Mr. Elmer's wife at the time, Sue Tiregre. They
recovered some computers and SD cards, but nothing recovered was relevant to the allegations made
(Rec.pp. 939-58). Det. Waguespack admitted the only phone they did a “dump” on was Sunnie's. None
of the texts from Sunnie's phone indicated an admission of any of JH’s allegations (Rec.pp. 957-76).
Jennifer Richard testified she was the Gocknother of JH and die and her mother, Sunnie, had been
friends since they were teenagers and met at Victory Life Church. She had a degree in Sociology and
worked with law enforcement. Ms. Richard testified that Sunnie told her via text in December 2017
that JH had said Mr. Elmer had been touching her Goddaughter. Ms. Richard spoke with JH alone and
asked her what Mr. Elmer had done to her. Hie next day on her way home from Mississippi, she called
the St. Charles Sheriffs Office and made a report. Ms. Richard admitted to immediately texting Sunnie
to not let Sue TVegre to talk the JH (Rec.pp. 985-1007).
Sunnie Elmer testified she was always close with her father, John Elmer, and after her second
\\Mepd05\ICS\lp-dax*stance80\My Doaiments\dients\30mer Ibhn # 185491^1 mer Dohn USCERT.odt
John Elmer v. State ofLouisiana, Warden
6.

divorce, she moved in with her parents in Bayou Gauche. She counted on them to help her with the
children and take them to school and sports (Rec.pp. 1040-55, 1169-71). Sunnie testified Mr. Elmer
took JH on hunting trips and they often went shopping and out to eat afta- practice. Sunnie admitted
die felt excluded along with her son and her Mom.
She testified she decided to move to Mississippi in the Summer of 2017 because she was losing
control over her kids. She had also moved in with her boyfriend, Nick. He didn't work as many hours
as she did and could be home to take the kids to and from the bus stop (Rec.pp. 1055-65, 1171-7, 11881210).
Around November 2013, Mr. Elmer took his granddaughter, JH, to Alabama for a school project
because she couldn't. Sunnie testified die mostly remembered JH came home in a leopard dress he had
bought her and she thought it was inappropriate. She diowed the jury a picture of JH in the dress.
Sunnie testified she first became aware of something happening to JH when JH threw a fit while
shopping on Black Friday 2017.
Mr. Elmer had been hunting in Mississippi and they had texted back and forth all day. When her
and her Mom confronted JH about why she was so angry and confrontational, JH told them her
grandfather had touched her. Sunnie texted her father and told him he needed to send her her
inheritance and take care of her kids the way they had been living and she told him he had a week to do
it (Rec.pp. 1065-72,1086,1158-85).
Sunnie testified die only reported it to the police 8 or 9 days later after she told her friend, Jennifer
Richard. In the texts, Sunnie asked Mr. Elmer for the coastal property in Pass Christian, her Bed Buy
credit card, and to wire her money. Sunnie later read the texts to the jury that reveal both her and her
father realized these texts can be perceived as compensation for not reporting. Sunnie testified that in
August or September 2018, her son PH disclosed information to Lisa and then he told her. Sunnie
\\Mepd05\ICS\lp-dconstance80^1y Documerrts\cllert:s\E\Bmer Jahn #185491\£lmer John USCSTTodt
John Elmer v. State qfLouisiana, Warden
7.

admitted that she sued her father in civil court two or three weeks after the disclosure in 2017. Hie
lawsuit was settled for $900,000 (Rec.pp. 1072-1136,1141-55, 1185-8, 1198-1203).
PH testified he was 13 years old at the time of the trial. He testified he and his sister, JH, had
different interests and he wouldn’t lie or do any favors for her. PH testified that they saw their
grandparents all the time growing up and they often spent the night there. PH admitted he would
sometime lie about things like shooting his sister with aBB gun and doing his chores. He testified he
saw some things wrong that happened between his “D-Dad” and his sister. PH recalled a time when the
front door was locked and he saw his grandfather touching his sister on her chest while they were
sitting on the couch. PH testified he didn't tell anyone about it because he didn't want to get in trouble
or get his grandfather or sister in trouble.
A second the same thing happened and he walked in and yelled at his grandfather. PH said his
grandfather told him not to say anything or he would hurt him, so he didn't. A third time, PH went
upstairs and saw his grandfather on top of his sister. She had a swimsuit on and his grandfather was
fully clothed He yelled at his grandfather again, but did not tell anyone. PH testified at times he heard
his sister yelling at ha- grandfather not to touch her behind closed doors. He testified that sometimes
his grandfather slapped or hit him and he believed his grandfather prefenred his sister over him. PH
testified he finally blurted out what was happening when he had his Mom were in an argument (Rec.pp.
1233-57).
Sue Thegre testified that Mr. Elmer retired in 2013 or 2014. She testified that JH and PH were her
grandchildren and they only occasionally got along. Ms. TVegre testified she has known both of them to
lie, usually to tell on the other to get them in trouble. Ms. Tregre testified they ofter financially
supported Sunnie and the kids, especially pay for travel ball. She testified Mr. Elmer's relationship with
both grand-kids was nonnal. Ms. Tregre recalled when Mr. Elmar took JH to Alabama for social

\\Mepd05\ICS\lp-doDnstance80\My Documents\dlents\0JEI mer John #185491\Elmer John USCERTodt

John Elmer v. State ofLouisiana, Warden

8.

studies project. She recalled the dress he bought JH at a boutique, and testified that she thought it cost
too much and was inappropriate (Rec.pp. 1279-90).
Ms. Tregre testified that JH often stayed in her room at their house because she and PH fought a lot,
aid that after Sunnie and her kids moved to Mississippi, her relationship with Mr. Elmer improved and
they began to look at places to retire. During that time, JHTs appearance and behavior changed. Ms.
Tfegre testified die told Mr. Elmer die believed JH was being molested. The Friday after
Thanksgiving, Ms. Tregre was shopping with Sunnie and JH, and JH had a bad attitude all day. That
evening, Sunnie confronted her and she admitted Mr. Elmer had been touching her. Ms. Tregre testified
that Mr. Elmer threatened to kill himself all the time. She admitted she did not call and report the
matter to the police, but she did make a statement to the police after it was reported (Rec.pp. 12911332).
JH testified that the first time she was touched inappropriately was when her grandfather took her
to Alabama for a social studies project and they stayed in a hotel room. A few months after he touched
her again at his house, and it continued regularly after that. He never kissed her on the mouth or
vaginally penetrated her with his penis. JH testified die never put her mouth on his penis, and that
when she threatened to go to the police, Mr. Elmer told her he would kill himself. She testified he never
threatened to hurt her or anyone else. JH testified she told her Mom and grandmother when confronted
after shopping on Black Friday in 2017 (Rec.pp. 1360-97).
Joshua Elmer testified for the defense. He testified he and his father, Mr. Elmer, were sued in civil
court by his sister, Sunnie in January 2018. Josh testified that almost a million dollars was seized from
their joint account. He testified that in November 2017, his father was distributing his assets to his kids
and grand4rids. Josh told the jury that Mr. Elmer planned to move with his wife overseas after the
holidays, but his wife did not want to go (Rec.pp. 1430-49).

^MepdOSVCSVp-ckonstanceSOV^y Documents\dlents^\P mer John #185491\Elmer Jahn USCERTodt
John Elmer v. State ofLouisiana, Warden
9.

STANDARD OF REVIEW
In State v. Ash lev. 33,880, at *3 (La. App. 2“* Cir. 10/04/00), 768 So.2d 817, 819, the Court noted
that, “the accused may be entitled to an acquittal ... if a rational trier of fact viewing the evidence in
accord with Jackson y. Virginia. 443 U.S. 307,99 S.Ct. 2781, 61 L.Ed.2d 560 (1979), in the light most
favorable to the prosecution, could not reasonably conclude that all of the elements of the offense have
been proven beyond a reasonable doubt.”
Also, the Due Process Clause of the Fourteenth Amendnent protects persons accused of a crime
against conviction unless the State proves every element of the offense beyond a reasonable doubt. In
re Winship. 397 U.S. 358,90 S.Ct. 1068,25 L. Ed. 2d 368 (1970).4
Furthermore, criminal statutes of limitation are to be liberally construed in favor of repose in favor
of the defendant. U.S. y. Marion. 404 U.S. 307,92 S.Ct. 45, 30 L.Ed.2d 468.
LAW AND ARGUMENT
ISSUE NO. 1
John Elmer The State failed to meet the stringent burden of proof as required in Jackson
is guilty of Molestation of a Juvenile.
Mr. Elmer challenges the sufficiency of the evidence supporting his convictions for Molestation of
a Juvenile. For this reason, this Court “should prelim inary determine the sufficiency of the evidence
before discussing the other issues raised on Appeal.” State v. Herron. 2003-2305 (La App. Is* Cir.
5/14/04), 879 So.2d 778 (citing State v. Hearotd. 603 So.2d 731 (La 6/29/1992)). This is because “a
finding of insufficient evidence to support the guilty verdict bars the retrial of a defendant based on the
constitutional protection against Double Jeopardy,” and renders all other issues relating to that charge
moot. State v. Davis. 2001-3033 (La App. 1st Cir. 6/21/02), 822 So.2d 161,162-3.
411118 type of error has been recognized as patent error preventing conviction for the offense,
La.C.CrP. art. 920(2), see indicative listing at State v. Guillot 200 La. 935, 9 So.2d 235, 239
(1942). Quoting: State v. Crosby. 338 So.2d 584, 588 (La.1976).
\\Mepd05VCS\jp-claonstance80Vw1y Document3\clients\E\Elmer John #185491\Elmer John USCERTodt

John Elmer v. State qfLouisiana, Warden

10.

This Court cannot overlook the “very questionable” testimony from the State’s witnesses
concerning these allegations. According to the testimony of the witnesses, the State failed to prove the
essential elements of the offense beyond a reasonable doubt.
The testimony presented during trial failed to include any facts for the use of force, violence,
duress, menace, psychological intimidation, threat of bodily harm, or the use of influence by virtue of a
position of control or supervision.
Although the State may argue (as they did in Closing Arguments) that it appeared that Mr. Elmer
had used psychological intimidation with the use of threats of suicide, this Court must note that the
allegations of Mr. Elmer's thoughts of suicide were alleged to have occurred after JH's questionable
disclosure to her mother and grandmother (See: texts between Sunnie Elmer and Mr. Elmer).5
This Court must also determine that the disclosure by JH must be considered “suspicious as best”
due to the fact that this disclosure was made during the course of a “family” altercation (or argument)
concerning JH's “troubles” with school. In fact, JHs grandmother, Sue Tegre (Mr. Elmer's ex-wife)
specifically asked JH during the argument of JHs attitude aid problems at school, “Did D-Dad do
something to you that he shouldn't have done to you?”hnmediately upon answering Sue’s question, the
argument (or chastising) was over with (Rec.pp. 1013, 1071, 1304, 1415).
What's most amazing about this disclosure is the fact that no one decided to call the police about
the disclosure (Rec.p. 1073). Yet instead, the decision was made to text Mr. Elmer and inform him that,
“You're going to give me some money, so 1 can take care of the kids to the extent they have been living.
You better figure it out. Seriously, I don't think you have a toe to stand on. You're playing with fire at
this point. I want their inheritance, so they can be taken care of. You have a week” (Rec.p. 1086). In
fact, Sunnie was basically giving her mother two weeks in order to, “get things in order” (Rec.pp.

5 Please note that the texts were net made a part of the Record which was receiv ed by Mr. Elmer by the C ourt of Appeal.
\\Mepd05\ICS\lp-dconstance80\My Document5\dlents^\E mer John #185491\Elmer John USCERTodt

John Elmer v. State ofLouisiana, Warden

11.

1004,1166).
Throughout the text messages, most of the discussion concerned money and property; not the actual
allegations against Mr. Elmer.6 This is a case of “Follow the Money” for the family; not Justice for TH.
In fact, Sunnie admitted that she had sent a text to Mr. Elmer that he, “needed to send some money”
(Rec.p. 1072,1086),7 and that she had filed a Civil suit on behalf of TH* approximately 2-3 weeks after
Mr. Elmer's arrest (Rec.p. 1130).
Another issue this Court must consider is the fact that Jennifer Richard (Sunnie's friend who is
allegedly trained in Crisis Management violated every ethical code concerning her profession. During a
discussion with an alleged victim, it is the noimal process to have the alleged victim disclose; not ask
direct questions (or “yes” or “no” questions) in order to determine the validity of the allegation.
hi this case, Ms. Richard asked direct “yes” or “no” questions to JH (Rec.p. 1393), without
questioning her about die actual account of the events. Ms. Richard admitted that the following
conversation had occurred between herself and TH: “Did Granddad penetrate your vagina with his
penis? She said: No. 1 said: Did Granddad take his penis and put it in the opening of your vagina? She
raid: Yes. I said: Did Granddad touch your vagina with his fingers, yes or no? She said: Yes. I said: Did
Granddad ejaculate on you? She said: Yes. I said: Did Granddad touch your butt with his penis? She
raid: Yes. I said: Did Granddad make you touch his penis with your hand? She said: Yes. I said: Did
Granddad touch your breasts? She raid: Yes. I said: Did Granddad touch you with his - - with your
mouth with his penis? She said: Yes.” (Rec.p. 992).
Surely, no Court would consider this a proper questioning by someone who believes that they are a
professional in this type of situation. Ms. Richard testified that her Internship began in 2016; and that
her paid job Parted about a month prior to trial, but failed to stipulate and specifically training that die
6 This would include the inheritance concerning Mr. Elmer's decision to change his Will.
7 In fact, an overwhelming amount of the texts referred to either money or prop erty.
8 Without discussing the matter with JH.
\\Mepd05\JCS\)p-daonstance80\My Documente\dlents\fE\0mer John #185491\E!mer John USCERTodt

John Elmer v. State qfLouisiana, Warden

12.

had received (Rec.p. 999).
The Court must also consider the “questionable” testimony and circumstances of PH (JlTs younger
brother), the only person who allegedly witnessed any of these incidents. PH also disclosed these
incidents during the course of a heated family “discussion” concerning problems with his attitude and
bullying other children. PH testified that he disclosed when him, his mother, her friend, and her friend's
daughter were arguing (Rec.pp. 60,1252).
PH also testified that he didn't know how many times he has lied, and that he would lie in order to
get out of trouble (Rec.p. 1243). Incredibly, PH testified to the fact that he witnessed these alleged
incidents when he was about 11 years old (Rec.p. 1256), but had given a statement to the authorities,
informing them that he was approximately 7-8 years when he had witnessed the acts (Rec.pp. 55, 57).9
The State's credence to the credibility of the their witnesses cannot be justified by the Record in this
matter. One must remember that, A liar cannot be believed on the one hand, but not the other. Falsus
en uno, falsus en omnibus.
Further, incredible, contradictory, or impeached testimony fails to establish a corpus delicti in the
first instance, and also goes to the Winship standard at trial.
The fact that impeached testimony, standing alone, cannot uphold a conviction under the law is
predicated upon the fact that impeached testimony, landing alone, fails to establish a corpus delicti in
the first instance ...
While the credibility of a witness is a matter for the finder of fact, once impeached, that witness's
testimony becomes suspect under the law and must be corroborated in order to be convincing evidence
of guilt or innocence. This is especially true where the credibility of the witness is paramount to the
outcome of the case.
9 Although PITs statement was not presented during trial, this Court must determine that it is available for use due to the
fact that is part of the Record which was received by Mr. Elmer.
\\Mepd05\ICS^p-doonstance80\My Documents\dlents\E\0 mer John #185491\Elmer John USCERTodt

John Elmer v. Slate qfLouisiana, Warden

13.

In State v. Kennedy. 803 So.2d 916 (La 2001), in Justice Traylor's dissenting opinion, it is stated
that the Louisiana Supreme Court has found that, “The victim's testimony, standing alone, can prove
that the act occurred, ...” but is qualified in FN9, “However, we have also ruled post-trial that
impeached testimony of a witness, standing alone, cannot prove the offense.”
For the purposes of appellate review, a conviction must be based upon proof sufficient for any
rational trier of fait, viewing the evidence in the light most favorable to upholding the verdict, to find
the essential elements of the crime beyond a reasonable doubt Jadeson v. Virginia. 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560 (1979); State v. Matthews. 464 So.2d 298 (La 1985).
Mr. Elmer acknowledges that this Court typically accords great deference to a trier of fact's
decision to accept or reject the testimony of a witness in whole or in part. State v. Perkins. 11-955, p.
10 (La App. 3d Cir. 3/7/12), 86 So.3d 810, 817; State v. Gilliam.. 36,118 (La App. 2nd Cir. 8/30/02),
827 So.2d 508, writ denied, 2002-3090 (La 11/14/03), 858 So.2d 422. Where there is conflicting
testimony about factual matters, the resolution of which depends upon a determination of the credibility
of the witnesses, the m after is one of the weight of the evidence, not its sufficiency. State v, Allen.
36,180 (La App. 2nd Cir. 9/18/02), 828 So.2d 622, writ denied, 2002-2595 (La 3/28/03), 840 So.2d
566.
The trier of fact is charged to make a credibility determination, and may, within the bounds of
rationality, accept or reject the testimony of any witness; the reviewing court may impinge on that
discretion only to the extent necessary to guarantee the fundamental Due Process of Law. State v.
Casev. 99-0023, p. 9 (La 1/26/00), 775 So.2d 1022.
The crime of Molestation of a Juvenile is defined in LSA-R.S. 14:81.2, which provides, in pertinent
part:
A Molestation of a juvenile is the commission by anyone over the age of seventeen of any lewd
ex lascivious act upon the person or in the presence of any child under the age of seventeen,
\\Mepd05\ICS^p-clGonstence80\My DocumentsVdients^mer Jtihn #185491\Elmer l)hn USCERTodt

John Elmer v. State qfLouisiana, Harden

14.

where there is an age difference of greater than two years between the two persons, with the
intention of gratifying the sexual desires of either person, by the use of force, violence, duress,
menace, psychological intimidation, threat of great bodily harm, or by the use of influence by
virtue of a position of control or supervision over the juvenile. Lack of knowledge of the
juvenile's age shall not be a defense.
State v. Watson. 39,362 (La App. 2* Cir. 4/20/05), 900 So.2d 325. Under LSA-R.S. 14:81.2, the
State was required to prove that (1) the lewd or lascivious acts occurred, and critically, (2) that they
were accomplished by Mr. Elmer's use of force, violence, duress, menace, psychological intimidation,
threat of great bodily hann, or use of influence over JH by virtue of having a position or control or
supervision over ha-. See: State v. LeBlanc. 506 So.2d 1197 (La 5/18/1987)(describing additional “use
of force’3 element in LSA-R.S. 14:81.1 and distinguishing crime of Molestation from crime of Indecent
Behavior With a Juvenile based on this additional element).
When the State fails to prove the essential element of “use of influence by virtue of position of
control or supervision over the juvenile,” the evidence is insufficient to support a conviction of
Molestation of a Juvenile, but a responsive verdict of Indecent Behavior With a Juvenile may be
appropriate. See, e.g., State v. Teague. 893 So.2d 198, 205 (explainiqg that when appellate court finds
the evidence only supports a conviction of a lesser included offense ... [it] may modify the verdict and
render a judgment of conviction off the lesser included responsive offense); accord, State v. Busby. 941354 (La App. 3“ Cir. 4/5/95), 653 So.2d 140, writ denied, 95-1157 (La 9/29/95), 660 So.2d 854
(holding, in part, that Indecent Behavior With a Juvenile is a responsive verdict to Molestation of a
Juvenile); LeBlanc. supra
Applying the foregoing laws and standard of review, Mr. Elmer's conviction should be reversed
because the State failed to present any evidence that Mr. Elmer used force, threats, intimidation, or use
of influence upon TH by virtue of having a position of supervision or control over her in order to
facilitate the commission of a lewd or lascivious act upon her.

\\MepdO5\ICS\|p-doonstance80\My Documents\dlentsVE\0 mer John #185491\Elmer John USCERTodt
John Elmer v. State ofLouisiana, Warden
15.

The “use of influence” element in LSA-R.S. 14:81.2 is the functional equivalent of a non-physical
use of force. This alternate means of accomplishing the act of Molestation where, instead of force or
threats, an accused uses a position of supervision or control over a juvenile in order to influence the
juvenile into allowing the lewd or lascivious act to occur - is what separates the crime of Molestation
of a Juvenile from other sexual crimes against juveniles that do not involve the manipulation of a
victim by a person with authority over that victim. In order to constitute Molestation, more is required
than simply having a position of supervision or control; the offender must actually use the influence
gained by that position in order to overbear the will of the victim and accomplish the act complained
of.
Before the Legislature enacted the Mole&ation statute in 1984, LSA-R.S. 14:81 (Indecent Behavior
With a Juvenile) proscribed lewd or lascivious conduct with or in the presence of a child under the age
of 17 by a person over the age of 17 and at least two years older than the child, with the intention of
arousing or gratifying the sexual desires of either person. LSA-R.S. 14:81(A) provides, in pertinent
part:
“Indecent Behavior With a Juveniles is the commission of any lewd or lascivious act upon the
person or in the presence of any child under the age of seventeen, where there is an age
difference of greater than two years between the two persons, with the intention or arousing or
gratifying the sexual desires of either parson.”
The Molestation statute tracks the language of the Indecent Behavior With a Juvenile statute, but
adds an element not included in the definition of Indecent Behavior: commission of the offense either
by use of force, threats, or intimidation or by the use of influence by virtue of a position of control or
supervision over the juvenile. The Louisiana Supreme Court first clarified the difference between
Indecent Behavior and Molestation in State v. LeBlanc. 506 So.2d 1197 (La. 1986), in which the Court
explained:
“The definition of the new crime of Molestation of a Juvenile was a verbatim repetition of the
\\Mepd05\ICS\|p-ck»nstanceS)V^y Dcxximente\dlents\E\Smer John #185491\Elmer Dohn U9CERTodt

John Elmer v. State qfLouisiana, Warden

16.

definition of of the crime of Indecent Behavior With a Juvenile, with the addition of the
essential element of the use of force (or use of some other enumerated behavior of the accused).
It is therefore evident that the 1984 Legislature intended to create two distinct grades involving
lewd acts with juveniles, the distinguishing element being the use of force (or use of some other
enumerated behavior).”
LeBlanc. 506 So.2d at 1199.
In LeBlanc. the Court explained the “use of force” element by analogy to the crime of Simple
Robbery in Louisiana, noting that “... [t]he crime of robbery contemplates that some energy or
physical effort will be exerted in the “taking” element of the crime and that some additional “use of
force” in overcoming the will or resistance of the victim is necessary to distinguish the crime of
Robbery from the lesser crime of Theft, as defined by LSA-R.S. 14:67, Id, at 1200 (internal citation
omitted). The Court found that the lewd and lascivious acts were not committed by the use of force (or
other enumerated means of overcoming the victim's will or resistance), and modified Defendant's
conviction to the lesser included offense of Indecent Behavior With a Juvenile. Id., at 1201.
As LeBlanc and several subsequent decisions have made clear, “the [Molestation statute] describes
several ways in which an adult may coerce or influence a child to participate in or witness lewd
conduct.” State v. Shelton. 545 So.2d 1285 (La App. 2nd Cir. 1989yemphasis added). As explained in
greater detail below, in the absence of proof that the defendant influenced a child to participate in lewd
conduct using one of the enumerated means in LSA-R.S. 14:81.2, a conviction for Molestation is
subject to reversal on Appeal.
To illustrate, the simple fact that a person is a father (or teacher, or babysitter, car employee) of a
juvenile does not transform every lewd or lascivious act into a crime of Molestation. Instead, the
person must use the influence gained by virtue of such a position in a manner that acts as an equally
culpable substitute for the other enumerated means by which Molestation is accomplished: “force,
violence, duress, menace, psychological intimidation, [or] threat of great bodily harm.” LSA-R.S.
14:81.2(A).
\\Mepd05VCSVp<loonstance80\My Dacument5\dler*s\E\EI mer Jbhn #185491^1 mer John USCERTodt
John Elmer v. State qfLouisiana, Warden
17.

These “aggravating factors,” along with the use of (and influence gained by) a position of control or
supervision, are what separate “Molestation of a Juvenile” from other offenses that punish and deter
lewd and lascivious acts committed upon juveniles by adults. See: State v. Marrero. 2011-1285, pp. 67 (La App. Is1 Cir. 2/10/12), 92 So.3d 21. To this end, it is helpful to consider cases where reviewing
courts in Louisiana have determined what does, or does not, constitute sufficiency evidence in the
particular context of this “use of influence” element
In State v. Ragas. 607 So.2d 967 (La App. 4th Cir. 1992), a 13-year-old victim was sexually abused
by her step-uncle on multiple occasions. The Court of Appeals found, however, that the girl was not
subject to her uncle's supervision or control, despite her affirmative response to the prosecutor's
question about whether the uncle “looked after her” and her sister when they were at his home. Id., at
973. Hie Court found that, although the uncle had committed lewd and lascivious acts upon her, the
State failed to prove the “use of influence” element because the victim “was under no constraints to
remain with her uncle nor be subject to his supervision.” Ibid. In light of this deficiency in the State's
evidence, the court modified the defendant's conviction and entered a judgment of conviction for the
responsive, lesser included offense of Indecent Behavior With a Juvenile. Id
In State v. Strother, 43,363 (La. App. 2nd Cir. 8/20/08), 990 So.2d 130, the appellate court
concluded that the defendant did use influence by virtue of a position of supervision of control over his
minor victim. In that case, the Defendant hosted and supervised a party attended by minors, provided
alcohol to the minor victim and encouraged her to consume it, and then enforced a rule that the victim
had to remain at his home for the night because she had consumed alcohol and did not have a
designated driver. Id., at 10-11. The girl awoke in Defendant's bed while he was having sex with her.
Id., at 9. The Court of Appeals aptly described the defendant's use of influence as having “facilitated”
his commission of lewd and lascivious acts upon the young girl Id, at 11. Strother provides a

\\Mepd05\ICS\)p-ckxinstance80\My Documents\dlents\£\pmer Join #185491\Elmer John U9CERTodt
John Elmer v. State ofLouisiana, Warden
IS.

paradigmatic example of the conduct proscribed by the Molestation statute, and the distinction between
the crimes of Molestation and Indecent Behavior With a Juvenile.
In State v. Rideaux. 05-446 (La App. 3rd Cir. 11/2/05), 916 So.2d 488, 490, the Court thoroughly
discussed die “use of force or influence” element aid referenced some of the above-cited jurisprudential
examples of facts that did, or did not, satisfy the “use of influence element” in LSA-R.S. 14:81.2.
Although Rideaux did not establish a particular analytical framework for determining whether the “use
of influence” element has been proven, the Court did emphasized that the State must adduce evidence
proving that a victim was forced to endure a lewd and lascivious act by the Defendant's use of
influence, and that this influence must be a product of the Defendant's control or supervision over the
victim. See: generally, id.
Thrning to the facts of this case, there is no evidence to support a finding that Mr. Elmer used force,
violence, duress, psychological intimidation, or a threat of great bodily harm in committing any
offenses against TH. This leaves only the question of whether or not Mr. Elmer used “influence” he
gained ova- JH as a result of having control or supervision of her in order to facilitate the commission
of a lewd or lascivious act.
There is no testimony by JH or any other witness that supports the conclusion that this indispensable “use
of force or influence” element of Molestation was proven beyond a reasonable doubt. JH did not testify
that Mr. Elmer coerced ho* into committing these acts. Though certainly abnormal, JH seemed to
describe these acts as having simply been committed by Mr. Elmer without any discussion beforehand
about what might happen if she did not allow them to occur. She did not testify that she was afraid of
the consequences of prohibiting Mr. Elmer from committing these acts, nor did she testify that Mr.
Elmer used is authority over her to accomplish them. At multiple points, JH was specifically asked
whether Mr. Elmer ever said anything to her when committing these acts, and she responded that he
\\Mepd05\ICS\lp-dcDnstaice80\My Document5\dlents\E\8 mer John #185491\Elmer John USCERTodt
John Elmer v. State ofLouisiana, Warden
19.

did not.
According to JETs testimony, Mr. Elmer touched her in a lewd and lascivious manner, but he did not
force her to engage in these acts physically or exert influence over her in such a way that her will to
resist was overcome. Even if this Court found that Mr. Elmer held a position of supervision or control
over TH, that fact alone would not even be enough to satisfy the force or influence element; Mr. Elmer
must have used his influence over her to force her into participating in these acts against her will. On
this Record, the State failed to prove any such conduct on the part of Mr. Elmer.
To illustrate, JH testified in detail about one particular act that she alleged was die beginning of the
pattern of sexual abuse. She said that Mr. Elmer simply grabbed her and began kissing her. She did not
testify that she protested or resisted, or that Mr. Elmer said anything to her in order to overcome her will.
She wait on to describe a relatively continuous pattern of sexual activity between them, but never
testified to any facts establishing that Mr. Elmer used his influence over her in order to overbear her
will and accomplish them. She never testified that she was raped or otherwise forced to endure them.
Certainly, the State could argue that his role as her grandfather, alone, should demonstrate that his
influence over her enabled him to accomplish these acts. But Molestation requires more: the
affirmative use of influence in order to overbear the will of the victim.
Further, JETs testimony regarding gifts she received from Mr. Elmer has nothing to do with the
exercise of control or supervision over her, and as such, does not satisfy the indispensable element of
“use offeree or influence” as contemplated in LSA-R.S. 14:81.2. Indeed, if the simple act of offering
gifts in exchange for a victim's participation in lewd or lascivious acts could satisfy this element, then
the Legislature would have included a provision that included language such as “entice” or “persuade”
such as is found in other statutes prohibiting sexual conduct between children and adults. See: LSAR.S. 14:81.3 (Computer Aided Solicitation of a Minor)(proscribing electronic communication with the
\\Mepd05\ICS\jp-doonstance80\My Documents\cllents\E\EI mer John #185491\Elmer John U9CERTodt
John Elmer v. Stale qfLouisiana, Warden
20.

intent to “persuade, induce, entice, or coerce the [minor] to engage or participate in sexual conduct”):
LSA-R.S. 14:106(A)(5)(proscribing the “solicitation or enticement of an unmarried person under the
3ge of seventeen years” to engage in prohibited sexual acts).
But, Louisiana's Molestation statute requires mere: the functional equivalent of non-physical use of
force. At most, the acts described by JH constituted the commission of lewd or lascivious acts upon a
juvenile, but were not accomplished “by the use of force, violence, duress, menace, psychological
intimidation, threat of great bodily harm, or by the use of influence by virtue of a position of control or
supervision over the juvenile.”
As the Supreme Court's decision in LeBlanc and subsequent appellate decisions have unequivocally
demonstrated, the offender must effectively force a child to participate in the lewd acts by the exertion
of infuence over the child in order to be convicted of Molestation of a Juvenile. Jackson 443 U.S. 307;
Matthews. 464 So.2d 298.
Alternatively, Mr. Elmer requests that this court modify his conviction far Molestation of a Juvenile
and enter a conviction for the responsive offense of Indecent Behavior With a Juvenile. Teague, supra;
LeBlanc. supra; Busbv. supra; Ragas. supra
WHEREFORE, for the foregoing reasons, and the reasons stated in the Original Brief filed by
appellate counsel, The State has failed to meet its heavy burden of proof of guilt beyond a reasonable doubt,
and this matter should be dismissed.
SUMMARY
Mr. Elmer has properly informed the courts that this entire case was a case of “follow the money,”
because it appears that these allegations were lodged after a family confrontation concerning the money
that Mr. Elmer had saved for his retirement. Let's not forget that the alleged victim's mother had sued
Mr. Elmer in order to ensure that, “so that I can take care of the kick to the extent they have been

\\MepdO5\ICS\Ip-da)nstance80\My tocumente\dlents\E\EI mer Ijhn #185491\Elmer John U9CERT.odt
John Elmer v. State ofLouisiana, Warden
21.

living” (Rec.pp. 1072,1086).”
In fact, almost all of the texts Sunnie Elmer (Mr. Elmer's daughter, and the alleged victim's mother)
sent to Mr. Elmer were about money and property that she wanted from him because the family had
basically been “cut off” from Mr. Elmer's money after his divorce from his wife (Sue Tegre). A close
review of the texts and messages failed to include any allegations concerning TH. This Court must
determine that these allegations had been lodged against Mr. Elmer because TH's mother and
grandmother were concerned about their own financial security after the divorce.
There was quite a bit of testimony concerning John's money that everyone wanted, including the
inheritance and the properties that he owned. The disclosure happened soon after everyone found at that
John was moving to Brazil for retirement This means that Sue wasn't going with him; which resulted in
a Divorce. According to the pre-nuptial agreement, Sue would end up with nothing. The family had also
discovered that John had changed his Will, leaving everything to his son instead of dividing up the
money and assets.
Furthermore, testimony adduced during the course of the trial proves that the alleged victim had
been constantly questioned by her mother, grandmother, and her mother's friend (Jennifer Richard)
concerning TH. Hie questions presented to ho* were not “general” questions, but specific questions in
which TH was asked about illicit conduct by her grandfather. The questions presented to TH were
specifically designed to obtain the answers desired. These specific questions were, “Did Grandad do
this or that?” Not what happened, and who did it?
hi fact, Jennifer Richard (the alleged victim's mother's friend) had only recently obtained a job in
Crisis Management a month prior to the commencement of Mr. Elmer's trial (Rec. p. 999), with only
“some” training with children (Rec.p. 999). In fact, Ms. Richard testified that the arguments with TH
aid her mother concerned her troubles at school, the bullying TH had been doing to other students at
\\Mepd05\ICS\|p-doonsta-ice80\^lYDoajments\dients\jE\Smer John #185491\Eimer John USCERTodt
John Elmer v. State qfLouisiana, Warden
22.

her school (hence, the suspensions and moving to other schools), and the fad that TH was unable to get
what she wanted when they went shopping on “Black Friday” (Rec.pp. 1013,1304).
During TETs testimony, she admitted that the allegations were made during a family argument
concerning her school, and her “attitude” concerning the shopping trip; and that her mother and
grandmother had specifically asked her if her grandad had done anything to her (Rec.p. 1415). After the
disclosure of the alleged abuse, all arguments ceased concerning THs behavior.
The State has also relied heavily on the erroneous allegation that Mr. Elms* was taking his
granddaughter to Victoria's Secrets to shop for underwear. Although Sue Tegre and Sunnie Elmer
testified to such, IH specifically testified that her mother (Sunnie Elmer) was the one who brought her
to Victoria's Secrets in order to purchase underwear (Rec.p. 1418).
In light of the argument above, and the argument presented to the Fifth Circuit Court of Appeal, Mr.
Elmer contends that the State failed to meet their stringent burden of proof as required in Jackson v.
Virginia. 443 U.S. 307, 99 S.Ct. 2781,61 L.Ed.2d 560 (1979).
WHEREFORE, for the reasons stated within, Mr. Elmer humbly requests that this Honorable Court
invoke its Supervisory Authority of Jurisdiction over the lower courts, and after a thorough review,
deem his Application for Writ of Certiorari good, and Grant him the necessary relief.

\\MepdO5\ICS\Ip-dcori5t3nce80\My DDCuments\dients\E\B mer John #185491\Elmer John U9CERT.odt

John Elmer v. Stale ofLouisiana, Warden

23.

CONCLUSION
For the reasons stated above and in the previous filings in the State of Louisiana Courts, Mr.
Elmer's Writ of Certiorari should be granted, and this matter be remanded to the district court for a
dismissal; or in the alternative, a new trial. Mr. Elmer has shown that this conviction is contrary to
clearly established federal law as e&ablished by the United States Constitution and the United States
Supreme Court; and that reasonable jurists would debate the validity of the conviction.

Respectfully submitted,

John Elmer
Date: April 19. 2021

\\Mepd05\ICS\lp-daonstance80\My Documents\dlents\E\EI mer Ibhn #185491\Elmer John USCERT.odt

John Elmer v. State ofLouisiana, Warden

24.

